<html>
<title> - WEAPONIZING SPACE: IS CURRENT U.S. POLICY PROTECTING OUR NATIONAL SECURITY?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   WEAPONIZING SPACE: IS CURRENT U.S. POLICY PROTECTING OUR NATIONAL 
                               SECURITY? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2007

                               __________

                           Serial No. 110-18

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

37-094 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



















             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2007.....................................     1
Statement of:
    Grego, Laura, Ph.D., staff scientist, Global Security 
      Program, Union of Concerned Scientists; Theresa Hitchens, 
      director, Center for Defense Information; Jeff Kueter, 
      president, the George C. Marshall Institute; and David 
      Cavossa, executive director, Satellite Industry Association    52
        Cavossa, David...........................................   107
        Grego, Laura.............................................    52
        Hitchens, Theresa........................................    67
        Kueter, Jeff.............................................    93
    Mahley, Donald, Deputy Assistant Secretary for Threat 
      Reduction, U.S. Department of State; Major General James B. 
      Armor, Jr., Director, National Security Space Office, U.S. 
      Department of Defense......................................    24
        Armor, Major General James B., Jr........................    32
        Mahley, Donald...........................................    24
Letters, statements, etc., submitted for the record by:
    Armor, Major General James B., Jr., Director, National 
      Security Space Office, U.S. Department of Defense, prepared 
      statement of...............................................    35
    Cavossa, David, executive director, Satellite Industry 
      Association, prepared statement of.........................   109
    Grego, Laura, Ph.D., staff scientist, Global Security 
      Program, Union of Concerned Scientists, prepared statement 
      of.........................................................    56
    Hitchens, Theresa, director, Center for Defense Information, 
      prepared statement of......................................    69
    Kueter, Jeff, president, the George C. Marshall Institute, 
      prepared statement of......................................    95
    Mahley, Donald, Deputy Assistant Secretary for Threat 
      Reduction, U.S. Department of State, prepared statement of.    26
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................    14
        Various statements.......................................     3


   WEAPONIZING SPACE: IS CURRENT U.S. POLICY PROTECTING OUR NATIONAL 
                               SECURITY?

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, McCollum, Platts, and 
Foxx.
    Staff present: Leneal Scott, information systems manager; 
Dave Turk, staff director; Andrew Su and Andy Wright, 
professional staff members; Davis Hake, clerk; A. Brooke 
Bennett, minority counsel; Christopher Bright, minority 
professional staff member; Nick Palarino, minority senior 
investigator and policy advisor; and Benjamin Chance, minority 
clerk.
    Mr. Tierney. Good afternoon, everybody. Thank you for 
joining us here today. I am pleased that our witnesses are able 
to make it here today.
    I want to briefly take care of some business, if I might, 
before we get started.
    A quorum is present for the subcommittee hearing on 
Weaponizing Space: Is the Current U.S. Policy Protecting our 
National Security? The hearing will come to order.
    I ask unanimous consent that only the chairman and ranking 
minority member of the subcommittee make an opening statement, 
provided that the ranking minority member can delegate that to 
another Member. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee may be allowed to submit a written statement for 
the record. Without objection, so ordered.
    I ask unanimous consent that the following written 
statements and materials be placed into the hearing record: a 
statement by Mr. David McGlade, the CEO of Intelsat General 
Corp.; a written statement from Iridium Satellite LLC; a 
written statement from Dr. Jeffrey Lewis of the New America 
Foundation; a written statement from Dr. James Clay Moltz, the 
deputy director of the Center for Nonproliferation Studies at 
the Monterrey Institute for International Studies; and two 
articles from Space News International and two articles from 
Defense News authored by Dr. Michael Krepon from the Henry L. 
Stimson Center.
    Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]
    
    Mr. Tierney. Since the dawn of the space age, the U.S. 
leadership has put a man on the Moon, has allowed us to see to 
the edge of the universe, saved countless lives by helping to 
better predict hurricanes, and revolutionized the way the 
peoples of the world communicate.
    Our country's leadership over the years in helping to 
establish a clear understanding among all nations that the 
peaceful use of space is of paramount importance has repaid us 
untold benefits, and it promises to increasingly do so in the 
future.
    Our country owns or operates 443 of the 845 active 
satellites around our planet. It is a $100 billion a year 
industry. Global Positioning System technology is taking off, 
and even space tourism is becoming more and more of a reality.
    And our military and intelligence capabilities have become 
huge beneficiaries of a weapons-free space. Without space, our 
smart bombs would not be precise. Without space, our troops in 
Afghanistan and Iraq would not have the real-time information 
they need. Without space, crucial intelligence gathering would 
simply vanish. Satellites have, quite literally, become the 
eyes and ears of our national security.
    However, there are potentially ominous clouds on the 
horizon. Space experts, some of whom we will hear from at 
today's hearing, charge that over the last handful of years the 
current administration has undertaken a series of actions and 
changes in policies that could have a profound impact on the 
future of space and the future of our national security.
    Exhibit A is President Bush's new space policy. Though the 
new policy had been widely anticipated for years, the 
unclassified version was stealthily posted on a Web site late 
on the Friday prior to Columbus Day weekend in 2006. The rest 
of the world, both our allies and our potential adversaries, 
took notice, particularly at its aggressiveness and unilateral 
tone.
    The previous space policy spoke of the need for a ``stable 
and balanced national space program,'' one in which ``[t]he 
United States will pursue greater levels of partnership and 
cooperation in national and international space activities and 
work with other nations to ensure the continued exploration and 
use of space for peaceful purposes.''
    The Bush administration policy, on the other hand, treats 
space as one more battlefield besides air, land, and sea, and 
states unequivocally, ``The United States will oppose the 
development of new legal regimes or other restrictions that 
seek to prohibit or limit U.S. access to or use of space. 
Proposed arms control agreements or restrictions must not 
impair the right of the United States to conduct research, 
development, testing, and operations or other activities in 
space for U.S. national interests.''
    But the aggressive and unilateral record of this 
administration is not just limited to the one document. For 
example, in 2002 the United States withdrew from the Anti-
Ballistic Missile Treaty on the grounds that it needed greater 
capabilities against rogue states following the September 11th 
terrorist attacks.
    In September 2004, then Under Secretary of State John 
Bolton stated, ``We are not prepared to negotiate on the so-
called arms race in outer space. We just don't see that as a 
worthwhile enterprise.''
    In October 2005, the United States was the only country in 
the world to vote against a United Nations resolution calling 
on the need for a treaty to limit weaponization of space; 160 
countries voted in favor.
    The Air Force doctrine during the Bush administration has 
also been criticized as being overly unilateral and aggressive. 
Air Force doctrine and top officials repeatedly speak of 
``space dominance,'' with one document noting: ``Space 
superiority provides freedom to attack.''
    Our hearing today will explore the Bush administration's 
space policies and actions and what impact they have had and 
will have in the future.
    Will others in our world use the administration's language 
and actions as justification and cover to build their own 
weapons capabilities in space, thereby threatening the very 
assets and advantages we seek to protect? Or will other 
countries in the world ramp up their own space weapons 
capabilities no matter what United States policies and actions 
are? In other words, is the weaponization of space inevitable, 
and to think otherwise would only cause us to lose ground?
    Our hearing will also explore the apparently successful 
anti-satellite missile test by China earlier this year. China 
has long been viewed as a potential competitor to the U.S. 
interest in space and a potential threat because of its 
emerging space program and the increased frequency of its 
satellite launches. We have watched them closely. We were well 
aware when they attempted two anti-satellite missile tests in 
2005 and 2006.
    So it should not have been a surprise to anyone when China 
used a ground-based ballistic missile to successfully hit their 
own orbiting weather satellite in January of this year. We knew 
when they were going to conduct the test and were certain which 
satellite they were going to hit. We stepped up monitoring of 
the satellite and Chinese launch pads. We knew that the test 
would cause thousands of shards of space debris to float around 
for decades in low-earth orbit, potentially harming everything 
and anything in their path.
    But following the destruction of the satellite the silence 
was deafening. Though they didn't do anything to hide their 
launch preparations, the Chinese did not initially own up to 
the test, and the United States apparently decided not to do 
anything beforehand to try to prevent the Chinese test.
    We understand that this single Chinese test alone raised 
the threat to satellites in frequent low-earth orbits by as 
much as 40 percent. This incident should caution all of us 
about the stakes of getting space policy correct.
    What, if anything, could our country and our allies and our 
partners around the world have done to prevent all that debris? 
What should have done, if anything?
    This hearing will explore the administration's space 
policies and actions and ask the simple question of whether 
this is the path we should be going down.
    By alienating friends and potential adversaries alike, is 
the current approach weakening our national security through 
its actions and inactions toward space policy? Should our 
country take a leadership role in engaging our allies 
bilaterally and through multilateral institutions, such as the 
Conference on Disarmament and the Committee on Peaceful Uses of 
Outer Space, in order to preserve space for peaceful and 
commercial interests? Should we work with other countries to 
lay out rules of the road for space conduct; to put in place 
confidence-building measures and to work together to limit 
space debris?
    Or is the administration's approach the only real option 
for us in a world in which it and some others contend 
international cooperation and treaties will only serve to 
weaken our national security assets and interests?
    Up until the present, space has been a frontier that has 
been used peacefully by all of mankind, in many respects 
because it is inherently a global commodity.
    As the undeniable leader in space, the U.S. actions and 
policies will play a huge role in shaping the future of space 
and how it impacts our economy, our science, our exploration, 
and our national security. We must act with a sense of 
responsibility here and ask tough questions now while this 
renewed interest in the weaponization of space is in its 
infancy. We must ask tough questions now, before it is too 
late.
    Over the first 50 years of space exploration and use we 
know where U.S. leadership has taken us. This hearing will 
essentially ask where U.S. leadership should take us over the 
next 50 years.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. I would now like to yield to the ranking 
member for an opening statement, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. On behalf of Ranking 
Member Chris Shays and myself, we appreciate your holding this 
important hearing on a vitally important topic, and also that 
we have with us today two panels of witnesses, both 
representing the administration and outside experts.
    Today's safe and secure access to space is essential for a 
wide range of commercial activities. Satellites are an integral 
component of telephone and television service. They also 
provide GPS services used daily by many Americans, and they aid 
in weather forecasting, mapping, and many other functions.
    Space is also critical to American security. Satellites 
provide important capabilities to the intelligence community 
and the Defense Department. They are an indispensable tool on 
the global war on terror.
    The integration of space capabilities into most aspects of 
modern military operations is one of the distinctive and 
essential ingredients of America's military prowess. Therefore, 
it is absolutely necessary that the United States and all other 
nations continue to enjoy safe and peaceful access to space. 
This makes some events in recent years very troubling. Most 
disturbing is what occurred in January, China fired a ballistic 
missile into space and destroyed one of its own outmoded 
satellites. This created a huge amount of debris in orbit and 
had the potential to damage or destroy other satellites.
    Many experts wonder what motivated China to take such 
provocative action. They question whether China was signaling 
that it had dangerous capabilities which they might use against 
the United States in the event of some future crisis.
    Today we will hear about the Bush administration's national 
space policy, which is meant to guide every aspect of America's 
endeavors in space. Some have suggested that the points it sets 
forth are a radical departure from past practice. Critics have 
claimed that it will cause other nations to threaten our space 
capabilities. Others vigorously disagree with all of these 
contentions.
    We will be honored to hear from several experts with 
varying perspectives today. I look forward to their 
presentations, to their assessment of the Chinese action, and 
to their evaluation of the appropriate American response.
    I am also interested to learn the perspective of the 
witnesses on the viability of arms control agreements or other 
regulatory efforts to restrain threats in space. I wonder if 
such treaties will be enforceable, and certainly question the 
effect of such treaties, given that terrorist groups would 
certainly not consider themselves bound by them.
    Finally, I seek to find out what one means when referring 
to weaponizing space. I am not certain if this is an allusion 
to arms placed in orbit, weapons fired into space from the 
ground, or simply ground-based arms which travel through space.
    Mr. Chairman, we stand together in recognizing the 
indispensable role which space plays in the American economy 
and the Nation's security. I look forward to hearing our 
witnesses' testimony and the opportunity to have questions 
thereafter.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    I want to begin now, for our witness testimony section by 
introducing our witnesses on the first panel. We have 
representatives from both the Department of Defense and the 
Department of State. Ambassador Donald Mahley, the Deputy 
Assistant Secretary for Threat Reduction, and we have Major 
General James B. Armor, Jr., Director of the National Security 
Space Office within the Pentagon.
    I want to thank you both for coming and welcome you to our 
hearing today.
    It is the policy of this subcommittee to swear you in 
before you testify, so would you please stand and raise your 
right hands, and if there is anybody else that will be 
testifying with you, we ask that they also stand and take the 
oath.
    [Witnesses sworn.]
    Mr. Tierney. Let the record reflect that both witnesses 
answered in the affirmative.
    With that, Ambassador Mahley, would you be kind enough to 
begin with your statement? I think you know from ample past 
experience it is a 5-minute clock. We try not to be too strict 
on that, but you need not read directly from your remarks if 
you do not care to. You can summarize it any way you wish. The 
remarks for both you and the General will be placed on the 
record, at any rate.
    Thank you.

  STATEMENTS OF DONALD MAHLEY, DEPUTY ASSISTANT SECRETARY FOR 
THREAT REDUCTION, U.S. DEPARTMENT OF STATE; MAJOR GENERAL JAMES 
 B. ARMOR, JR., DIRECTOR, NATIONAL SECURITY SPACE OFFICE, U.S. 
                     DEPARTMENT OF DEFENSE

                   STATEMENT OF DONALD MAHLEY

    Mr. Mahley. Chairman Tierney, members of the committee, 
staff, thank you very much. I greatly appreciate the fact that 
you have already indicated that my written statement will be 
placed on the record. I would, if I could, like to summarize it 
orally in just a few short sentences.
    In accordance with the committee's request, my statement 
encompasses three topics: The administration's national space 
policy; China's January 11th anti-satellite test; and the 
administration's position on space arms control.
    I would offer two caveats to my testimony at the outset. 
First, because it is an unclassified hearing, there is, of 
course, a certain limit on some discussion of some sensitive 
topics that will occur. Second, the Department of State does 
not execute the material elements of national space policy. For 
that information, I will, of course, defer to my very able 
colleague from the Department of Defense sitting to my left 
here.
    In June 2002, the President directed an interagency review 
of national space policy. The resulting directive, signed by 
the President on August 31, 2006, and publicly released on 
October 6, 2006, supersedes the space policy directive signed 
by President Clinton nearly a decade earlier.
    This policy reaffirms the basic principles articulated a 
half century ago by President Dwight Eisenhower, our Nation's 
commitment to a free exploration and use of outer space by all 
nations for peaceful purposes and for the benefit of all 
humanity.
    U.S. space policy also continues to recognize the necessity 
to protect our assets in space. Defense and intelligence-
related activities in pursuit of national security interests 
fall within the scope of and are consistent with the 1967 Outer 
Space Treaty's provisions mentioning the peaceful uses of 
space.
    On January 11, 2007, the People's Republic of China 
conducted a test of an ASAT weapon that destroyed an old 
Chinese weather satellite in orbit. The administration has 
conducted numerous classified briefings to Congress in the wake 
of that test, and some even preceding it. The United States has 
sought an explanation from China regarding its test. To date, 
we have not received a satisfactory response.
    And it is also true the Chinese test generated some 1,500 
pieces of trackable debris, and is estimated to pose a risk to 
both human space flight and satellites for the next 100 years.
    The Chinese proposals for arms control negotiations in 
outer space would only ban a ground-based ASAT weapons testing 
and use, not its deployment or development. An additional space 
treaty would not improve the existing legal regime which has 
functioned effectively for over 40 years. A number of U.S. 
administrations have recognized the futility of seeking 
additional formal space arms control agreements. However, in 
response to international interest, as Ambassador Roca recently 
noted in Geneva, the United States is prepared to discuss but 
not to negotiate outer space topics in the Conference on 
Disarmament.
    I do thank you. I look forward to your questions.
    [The prepared statement of Mr. Mahley follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Tierney. Thank you, Ambassador.
    General.

         STATEMENT OF MAJOR GENERAL JAMES B. ARMOR, JR.

    General Armor. Chairman Tierney, Congressman Platts, 
members of the subcommittee, I am honored to appear before the 
subcommittee today as the Director of the National Security 
Space Office and the Executive Secretariat for the Department 
of Defense Executive Agent for Space.
    It is a very timely issue to discuss national space policy 
and the policy implications of China's counter-space 
development, specifically their January 2007, anti-satellite 
test. I must admit I am heartened by both your comments in 
pointing out the critical importance to national security in 
space. I also appreciate having Ambassador Mahley at my side 
here to discuss the Department of State policy issues.
    Our appearance today is our affirmation that space 
capabilities are vital to U.S. national interests and 
underscores the importance of continued unity of effort in 
implementing U.S. national space policy. I have been in the 
space business over 30 years, and every President since 
President Dwight D. Eisenhower has addressed space policy.
    Each administration has evolved space policy to reflect the 
increasing maturity and cumulative experience of the Nation's 
activities in space. Basic policy tenets have remained 
remarkably consistent: free passage and peaceful use of space; 
compelling need for a strong civil, industrial, and national 
security space sectors; and that, since they are vital to 
national interests, the United States has the inherent right to 
defend those interests in space.
    The current national space policy issued by the President 
last August addresses current opportunities, challenges, and 
threats facing the United States and our space capabilities. 
The policy provides direction as we conduct a host of space 
activities.
    The evolution of space technology coupled with continued 
integration of space capabilities into our Defense forces has, 
as you noted, revolutionized U.S. military operations. Space 
technology has radically enhanced the effectiveness of our now 
smaller combat forces, and reduced collateral effects on non-
belligerence.
    Space capabilities enable us to employ our armed forces 
within the guidelines established by the international laws of 
armed conflict.
    Space capabilities provide us with the eyes and ears that 
give us unmatched battlefield awareness, advanced warning and 
characterization of missile attacks, precise application of 
force, synchronization of our combat forces, and essential 
command and control functions.
    More broadly, space capabilities form the bedrock of our 
Nation's infrastructure, including diplomatic, informational, 
military, scientific, and economic elements of our national 
power.
    The new policy, consistent with previous national space 
policies, reaffirms longstanding principles: U.S. commitment to 
the use of outer space by all nations for peaceful purposes, 
continued encouragement to cooperate with others, strict 
adherence to existing international agreements regarding the 
use of outer space, rejection of any claim of sovereignty by 
any nation over outer space, the right to use or acquire data 
from space, and the free passage through and in space without 
interference.
    The Defense Department's goal for space and space-related 
activities is to possess the necessary space capabilities to 
achieve our national security objectives. The Secretary of 
Defense is further charged with developing capabilities, plans, 
and options to ensure freedom of action in space and, if 
directed, to deny that to its adversaries.
    Along these lines, our focus is on, first, space 
situational awareness, then preservation of our space 
capabilities, protection of our space capabilities, and, 
finally, protection of our terrestrial forces, our boots on the 
ground, if you will, from harm by adversary's space 
capabilities.
    Many nations and organizations around the world have 
recognized the benefits of space, and with the growing 
availability of technology, the general economic prosperity, 
and longstanding free passage and useful peace of space created 
under the current treaties, space has become a critical enabler 
for the global economy. China is one such nation, and they are 
pursuing space capabilities on a very broad front--economic, 
scientific, military, intelligence. They should be rightly 
congratulated for the impressive technical achievement of 
becoming the third nation in history to conduct manned space 
flight.
    Other nations have also recognized the asymmetric advantage 
in space power that the United States retains. Potential 
adversaries have and will continue to seek capabilities and to 
deny our advantage in space, and, as was made dramatically 
clear by China's test of an ASAT, space is now a contested 
environment. We believe China's testing of a direct ascent ASAT 
system, specifically the on-orbit destruction of a satellite 
that resulted in thousands of pieces of long-lived orbital 
debris, is not responsible behavior for a space-faring nation. 
It is inconsistent with China's stated position on preventing 
an arms race in outer space, its signed agreement to mitigate 
space debris, and the constructive relationship outlined by 
President Bush and President Hu.
    China is developing a wide range of anti-access and aerial 
denial capabilities, such as direct ascent ASAT, radio 
frequency jammers, and other capabilities, as part of a general 
transformation of their military forces. In addition to the 
counter-space capabilities, China is developing and deploying 
modern intelligence, surveillance, and reconnaissance 
satellites with advanced command and control, communications, 
and targeting capabilities.
    Today many nations are taking their first steps as space-
faring nations. These nations should strive to adhere to 
international outer space legal guidelines and ensure they are 
ready to operate safely in space.
    The United States has long urged the international 
community to focus on gaining universal adherence to current 
treaty guidelines. Not all countries have signed the Outer 
Space Treaty, for example.
    Space activity is strategically significant to the health 
of our Nation's security, defense, and economic well-being. The 
U.S. Government and Department of Defense policies recognize 
that fact, and access and use of space are central in 
preserving peace, protecting U.S. national security, and 
promoting civil and commercial interests. Space, bottom line, 
is vital to U.S. national interest.
    I thank you for allowing me the opportunity to discuss the 
implications of the new national space policy and the anti-
satellite test by China, and look forward to any questions you 
might have.
    Thank you, sir.
    [The prepared statement of General Armor follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Tierney. Thank you, General. Thank you both for your 
testimony, both oral and what will be submitted on the record.
    Let me just start the questions by asking this. Under 
Secretary John Bolton made a statement I mentioned in my 
opening remarks on September 2004. He said, ``We are not 
prepared to negotiate on the so-called arms race in outer 
space. We just don't see that as a worthwhile enterprise.'' 
Ambassador, why isn't that a worthwhile enterprise?
    Mr. Mahley. Mr. Chairman, I think I could answer that most 
succinctly by saying that no arms control is better than bad 
arms control. We have indicated in the Conference on 
Disarmament that we are prepared to discuss the topic and see 
if we can find some way in which one could frame it in a 
fashion which might be constructive. But, frankly, the kind of 
framework that has long been promoted as the prevention of arms 
race in outer space [PAROS], and the Conference on Disarmament 
documentation, including the most recent P-6 proposal, the A-5 
proposals that were there for a long time, allow things that 
simply do not have either a verifiable or an enforceable means 
of trying to actually prevent an arms race that would be 
inimical to our national interest.
    As I indicated in my opening statement, the particular 
proposal there, for example, would, indeed, make it illegal for 
the Chinese to exercise an anti-satellite weapon, but it would 
not in any way constrain them from developing it and deploying 
it. So we do not believe that is simply a means by which we are 
going to advance our national security in that kind of a 
negotiation.
    Thank you.
    Mr. Tierney. Do you think that would be some of the things 
that you would be negotiating?
    Mr. Mahley. It is my experience in these, at least, that 
when we start out with a negotiation that already has that kind 
of a serious flaw in it, the exercise is one in which you are 
going to try to find out how many more flaws you end up with, 
as opposed to trying to get rid of some of those that are in 
there. It has simply been there for a long time that no one was 
prepared to take that out in terms of the opening proposal, 
despite the fact that we have frequently indicated that is one 
of the things which is unacceptable.
    Thank you.
    Mr. Tierney. Just on a personal note, you have testified 
before us, we discussed outside, on chemical, biological. Your 
consistent opinion is you can't verify any of these treaties, 
so we shouldn't do them, period, right?
    Mr. Mahley. It is my view that when you have a treaty it is 
the responsibility of everybody that is a party of that treaty 
to comply with it, and that, unfortunately, in the course of 
the world there are probably going to be countries at one time 
or another which are not going to want to do that because they 
seek some advantage.
    In that case, the inability to determine that they are, 
indeed, not complying with their obligations is a serious, if 
not fatal, drawback.
    Thank you.
    Mr. Tierney. So bottom line is no treaties ever, in your 
view?
    Mr. Mahley. I would not wish to draw that conclusion, 
because I think we have done some in the past, and I think 
there is even the possibility of looking at things in the 
future that might be able to meet those standards, but I do 
think that we shouldn't get into any that don't meet the 
standards.
    Mr. Tierney. Give me a call some time, Ambassador, when you 
think of one that you think you might support, all right, 
because your numerous testimony, I think we haven't got there 
yet on that.
    General, where we are talking about debris and things of 
that nature, wouldn't that be at least something that we would 
want to be concerned about, the amount of debris that any of 
these actions, like China's action, happen, and something we 
want to engage rather vigorously in trying to make sure that we 
mitigate or stop?
    General Armor. Yes, sir, Mr. Chairman. And there are 
ongoing international discussions on debris mitigation. I think 
it is the Interagency Debris Coordination Committee, of which 
China was a signatory. This ASAT was not consistent with their 
signature on that.
    I know that, consistent with the international discussions 
we have on those rules, we have Department directives that 
direct us to minimize debris on all of our space activities, 
and it is pretty rigorously enforced.
    Mr. Tierney. When you talk about the United States 
establishing international space debris mitigation guidelines, 
essentially that is what they are, guidelines, and just----
    General Armor. Yes, sir, voluntary guidelines, if I 
understand it correctly. I am not a lawyer.
    Mr. Tierney. Has there been, to your knowledge, any 
negotiation trying to get some sort of regime that goes beyond 
the voluntary compliance aspect?
    General Armor. Not to my knowledge.
    Mr. Tierney. Do you think that would be useful?
    General Armor. I am sorry, sir?
    Mr. Tierney. Do you think that such a regime would be 
useful, given the amount of debris--this is one incident--and 
the potential that exists if others were to follow suit.
    General Armor. These guidelines are very useful, sir.
    Mr. Tierney. Are you saying that there would be no use for 
having something that could be enforced?
    General Armor. I don't know what enforce means in that 
context, sir, but guidelines like this that help stimulate 
responsible behavior and good rules in space are, I think, 
beneficial to all responsible users, all space powers.
    Mr. Tierney. It wasn't too beneficial to us with respect to 
China's actions, was it?
    General Armor. Well, we are a little bit----
    Mr. Tierney. Guidelines.
    General Armor. We are a little bit mystified as to China's 
intent and behavior in this case, sir.
    Mr. Tierney. But we weren't mystified to the fact that they 
did it, because we knew well in advance that they were gearing 
up to do it, right?
    General Armor. There were intelligence indications. Yes, 
sir.
    Mr. Tierney. Are you able to share with us why it is that 
we made the decision to not even make any public statement in 
advance that might have stopped them from doing that, or at 
least shined a light on them to make them think twice about 
doing it?
    General Armor. I would defer to others on that, sir. I had 
no insight into that decision process.
    Mr. Tierney. Who are the others that you would defer to?
    General Armor. I would defer to the White House and the 
other departments.
    Mr. Tierney. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, Mr. Ambassador, on the question of the current 
administration's not pursuing a space arms control agreement, 
and that would be an effective approach to take, am I correct 
in saying that is consistent with the previous several 
administrations, as well, that President Clinton, President 
Bush 41, President Carter, that they took this similar 
approach?
    Mr. Mahley. Sir, I think what is most accurate to say is 
that the last time that we attempted to negotiate a legally 
binding outer space treaty was in the Carter administration 
with the then Soviet Union. We did that for a number of years 
and we came to a conclusion that we could not even define the 
terms of what we were trying to negotiate at that point, let 
alone the question of what actually constituted weaponization 
of outer space and what would constitute an effective means to 
try to prevent it in any fashion.
    Since that time, I can say that there have been a number of 
internal deliberations in which we have tried to look at, in 
various U.S. administrations, things that might appear to be 
effective. And you are absolutely correct that it is a 
consistent view for at least the last four administrations that 
I am aware of that we have not been able to find anything that 
looked like it would be a productive means of trying to reach 
an international legally binding agreement. Yes, sir.
    Mr. Platts. On the issue of China, I think both of you 
reference in your statements the inquiries, both through the 
military channels and diplomatic channels, as to seek to get an 
explanation, and nothing of substance has been forthcoming. In 
this setting are you able to share what answers we have been 
given thus far?
    Mr. Mahley. Sir, the only thing that I can share with you 
diplomatically, because it happens to constitute the extent of 
my knowledge on the matter, not necessarily because it is all 
there is--and I will be happy to take the question to give you 
a more complete answer in terms of exactly what we have heard 
back from the Chinese. But the issue is that we demarged them 
about that and we have not as yet gotten from them anything 
which, in our general terminology, we consider satisfactory. By 
that I mean we have gotten nothing which attempted to indicate 
what their purpose was or to indicate what their intent was in 
doing it.
    We have gotten a flat statement from them which, in 
diplomatic terms, is sort of a push off, which simply says that 
it was not directed at any specific country. That is fine. It 
wasn't. It was their own satellite. We knew that to begin with. 
And beyond that, we have gotten no constructive dialog from the 
Chinese in response to our query.
    Thank you, sir.
    Mr. Platts. Mr. Ambassador and General, would you, either 
one, want to conjecture, given that China has been one of the 
nations pushing for arms control agreement, that since they are 
the only nation in the last 20 years that has actually pursued 
a weapon in space, as this test or this action in January 
exemplifies, their thought process? They are the only ones that 
have done it, yet they are seeking to limit that ability, from 
a diplomatic standpoint or a military standpoint.
    Mr. Mahley. Sir, I will take a stab at that, even though 
getting inside Chinese minds is not one of the things which is 
useful in most cases, or possible.
    I think the answer would, in some respects, be that the 
Chinese have generally been developing an overall military 
improvement operation, and so therefore that would make--and I 
would defer to my Defense colleague to contradict me if he 
thinks I am incorrect here--but therefore that kind of a test 
would not be inconsistent with their overall general military 
policy that they have been pursuing.
    In terms of why they would do that when they are continuing 
to push the preventions arm race in outer space idea and 
Conference on Disarmament, again, I would refer you back to my 
opening statement when I indicated that certainly their 
proposal for an agreement would not have prevented their 
development and deployment of such a system. The fact is that 
it wasn't a choice in place, and so therefore it could well be 
something like a nuclear test. If you will recall back when we 
were doing the CTBT negotiations, the Chinese went through an 
entire series of nuclear tests when they thought they might 
want to try to get that done before the conclusion of the 
negotiations.
    Whether that same kind of philosophy was engaged here, I 
really have no knowledge to say, but I would simply refer that 
to you historically.
    Thank you, sir.
    Mr. Platts. General, did you have something you would like 
to add?
    General Armor. Congressman Platts, no, I really don't have 
that much to add. I mean, that test is consistent with the 
broad Chinese investment in space, and so if you are pursuing 
that technology, that is a logical technology thing to do, but 
it is not consistent with the other things they have said 
openly and/or in agreements at the President-to-President 
level, so I am still a little mystified.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Tierney. In October 2005, I mentioned this also in the 
opening remarks, we had sort of an annual vote at the United 
Nations, and the vote generally talks about preventing an arms 
race in outer space, the need to do that, and in past years the 
United States has always voted present. This year it was a 160-
to-1 vote. The United States was the one to vote no.
    Ambassador, what was the change of heart there for that 
vote change? Just being obstinate, or was there something 
deeper in policy?
    Mr. Mahley. Well, sir, I would not try to tell you that I, 
again, am perfectly familiar with all of the internal 
deliberations that went into making the determination on that 
vote, but I will tell you the following: this year the 
resolution did have changes in the wording, and what it did is, 
particularly in conjunction with the other things that were 
going on in the Conference on Disarmament proposals at that 
same time, led us in language down a slippery slope into 
exactly the kinds of things that we had been protesting about 
in the Conference on Disarmament that we were not going to 
engage in, and so therefore it was the judgment of the 
administration that we ought, in this case, to simply make very 
clear that we were not going to let that language then be 
thrown back at us in the Conference on Disarmament context as 
having agreed to something which we were not prepared to agree 
to, and therefore the best way to do that was to vote no.
    Mr. Tierney. General, in your written testimony you made 
the statement that China is pursuing a broad-based, 
comprehensive transformation of its military forces to include 
space, counter-space, and information operations, including a 
modern intelligence surveillance and reconnaissance 
architecture with advanced space-enabled command and control 
and targeting capabilities, also developing a wide range of 
anti-access and aerial denial capabilities, including the 
direct ascent anti-satellite radio frequency jammers, lasers 
supporting space surveillance and information, warfare 
capabilities. Then you go on to talk about the lack of 
transparency in their expenditure.
    Are you able to say that the United States and other 
nations are not walking down the same path?
    General Armor. Other nations not walking down----
    Mr. Tierney. Not pursuing a broad-based, comprehensive 
transformation of forces, including space, not dealing with 
counter-space, not dealing with information, operations, not 
doing any of that?
    General Armor. We can share intelligence assessments on all 
the space-faring nations with you, gentlemen, in another venue, 
and we have shared those intelligence----
    Mr. Tierney. And I have seen them, so I am not asking you 
for specifics.
    General Armor. I see.
    Mr. Tierney. I am asking you for a broad statement. Are you 
able to state that no other country except China is taking that 
path or doing those things?
    General Armor. As broadly as China is doing it, I believe 
they are the only ones, as well as us, that are that broad and 
deep from----
    Mr. Tierney. So the United States and China?
    General Armor. Yes, at the current time.
    Mr. Tierney. OK. Now, there is some information out there 
that some people in the Chinese community didn't know that the 
test was happening. It was a relatively small group of people 
that were informed about that, and, in fact, the Chinese 
Foreign Ministry might have been largely cut out of the 
decisionmaking process on that. Is that something we should 
believe, Ambassador Mahley, or is that something they would 
like us to believe but is not real?
    Mr. Mahley. Mr. Chairman, I do not have any specific 
information, so when I tell you that I don't know the answer to 
that question it is not that I can't share it with you, it is 
that I don't know the answer to that question. But I will tell 
you that it has been my experience, in dealing with the Chinese 
government over a number of years and over a number of topics, 
that they have internal communications problems within their 
government at times, and so therefore it certainly would not 
surprise me to hear that the Ministry of Foreign Affairs was 
not fully briefed by their Ministry of Defense on that test and 
the impending nature of that test. Yes, sir.
    Mr. Tierney. General, do you want to add anything to that? 
I think that is what you were signaling me?
    General Armor. No, sir.
    Mr. Tierney. Ms. Hitchens, who is going to testify on the 
second panel today, makes an important observation in her 
written testimony and states, ``The more the United States 
seeks high-power means to both protect itself in space and 
ensure that others cannot use space against it, the more 
threatening U.S. intentions seem and the more others will seek 
to counter U.S. actions.'' Do you gentlemen agree with that 
observation? If not, why not? General?
    General Armor. Let me start. No, I don't really agree with 
that. I think most countries are now recognizing that space is 
in their national interest, economically, and a wide variety of 
domains, and they are going to pursue it to the extent that 
their nation is able to. There are even some organizations, 
consortiums that see the economic benefits and will put 
resources in space. Space tourism, like you said, is another 
example of another organization. So I just see this as a 
general growth and mankind expanding into the space domain, and 
I don't see it as necessarily one versus the other.
    Mr. Tierney. Let me proceed a little on that, because we 
just talked about the comment that at least the United States 
and China, with some depth, and others in less depth, are 
pursuing comprehensive transformation of military forces to 
include space, counter-space, information operations, 
intelligence, all those things, so yes, they are all doing it, 
but I think Ms. Hitchens point seems to be--we will hear more 
from her--that the more the United States seeks sort of hard 
power, or China or any of these others, to protect themselves 
in space and ensure that others can't use space against them, 
the more threatening this whole thing becomes, and it has a 
potential to spin a little bit out of control. You don't agree 
with that?
    General Armor. No, Mr. Chairman, I don't. I mean, we are 
the world's super power. We sort of are on the leading edge in 
space. When you say space, people think of America. It has been 
that way for decades now. And so I think this is just part of 
the natural evolution of other nations expanding into the space 
domain.
    We are No. 1 so you could say that we were the cause of all 
of their behavior, but I also think this is a natural 
progression of expanding into the space domain.
    Mr. Tierney. And that includes all the military uses and 
things of that nature?
    General Armor. Well, yes, sir, when mankind goes anywhere, 
it tends to take its defensive nature with it, as well.
    Mr. Tierney. And both of you gentlemen are fine with the 
idea that we shouldn't do anything on the diplomatic end about 
trying to get some sort of a treaty or agreement to slow that 
down or stop it?
    General Armor. Well, just like in the air and the sea, 
there are conventions and rules and guidelines that are very 
helpful to responsible behavior, navigation of the seas. Our 
militaries follow all of the air rules for traveling in air 
space, as does our Navy traveling in sea space, and so I 
believe that rules like that are genuinely signed up to an 
agreed-to conventions, rules--I am not a lawyer. I am not sure 
I know the right terminology, but those are generally helpful 
to prevent purposeful interference or to create situations 
where there is miscalculation of intent or just good, 
responsible behavior in the space domain.
    Mr. Tierney. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I want to make sure I understand both your positions on the 
issue of pursuing or the ability of a space arms treaty, that 
the position you have is based on the complexity of the issue 
and the ability to actually pursue one that would not 
compromise our national security and be verifiable and it is 
the issues around a space arms treaty that is why this 
administration and previous administrations have not pursued 
and actually engaged in one. It is not that you are not 
receptive, but it is just not a possibility that is going to 
not diminish our national security in today's environment.
    Mr. Mahley. Mr. Platts, I think I would answer that in the 
following fashion. The United States has as a policy right now, 
the fact that we are prepared to pursue equitable, effectively 
verifiable treaties that are in the national security interest 
of the United States and its allies. Now, that is not new. That 
is a policy that has been generally the nature of U.S. 
negotiating practice for at least the last 15 years that I have 
been engaged in negotiations.
    So, therefore, I think that it is safe to say that if we 
could find that kind of a treaty, that there is no inherent 
reason we would not be prepared to pursue it. But, as we have 
indicated, I think that we have had a number of false starts in 
the space area along that line which have been unsatisfactory. 
When I say false starts I go all the way back, as I say, to the 
ASAT negotiations that we engaged in with the Soviet Union 
some--I hate to look as old as I am, but some 30 years ago in 
that. And then the case that we have had, for example, the 
prevention of arms race in outer space proposal the Chinese 
have and the Conference on Disarmament. That has been around 
with only minor modifications for at least the last 12 years, 
and so therefore all of that is something which says those are 
not the ways to do that answer.
    I would also point out, with just one side note, the 
Chinese have been pursuing an active anti-satellite program for 
at least the last decade, so again I don't think that is 
because of any wording that is in the current national space 
policy that caused them to do that.
    Thank you.
    Mr. Platts. General.
    General Armor. I have been impressed with the Outer Space 
Treaty the last 40 years and the framework that it has laid 
out. Look at the way space has prospered now over the last 40 
years. Again, I do feel that, now that there is more and more 
space-faring nations and entities in space, that we do need to 
help augment the rules or just coordinate guidelines on how to 
operate responsibly in space. In fact, we have made our space 
situational and space surveillance data available on an 
Internet site to all users in space; www.spacetrot.org goes 
right into the Cheyenne Mountain data base so that people who 
are moving in space can sort of see that they don't bump into 
each other and otherwise know what is going on. That is the 
kind of responsible behavior that I think we would like to try 
and stimulate.
    Mr. Platts. On the issue of a specific arms treaty, the 
actions of China in January kind of add additional concerns why 
that is not necessarily feasible if we take the answer of the 
Chinese Defense Ministry not well communicating with the 
Foreign Ministry in the sense of the military trumping 
diplomacy. An arms treaty, in essence, is a diplomatic 
agreement, and it kind of makes the point that, when dealing 
with China, we maybe all the more need to be careful because 
within their government some friction between their foreign 
ministry and diplomatic efforts and their military pursuit of 
expanded and more-developed capabilities. Is that a fair 
statement?
    Mr. Mahley. Congressman, I think it is always a fair 
statement to say that when you have any kind of friction like 
that you tend to get policy which does not necessarily satisfy 
all the kinds of things that you would like to have done with 
it. And by that I mean that the Ministry of Foreign Affairs has 
certainly been among the people in the Chinese Government that 
have been pursuing the PAROS Agreement in Geneva.
    I would not want to say that the Ministry of Defense was 
trying desperately to undercut their efforts in Geneva, but I 
will say that it is not clear that diplomatic effort by the 
Chinese in Geneva constitutes a consensus opinion of the 
Chinese government, in which case you may get actions which are 
not consistent with it. And certainly we think that the ASAT 
test was not consistent with any kind of an arms control 
agreement that they have been pursuing.
    Mr. Platts. And certainly the actions in January, the 
launching of the satellite, didn't bolster the diplomatic 
efforts, and the refusal to give very much information in 
response to the launch doesn't bolster the diplomatic position 
of the Chinese.
    Mr. Mahley. No. Neither that action nor their response to 
the action, not only to us but to a number of other countries 
that have made an inquiry, has done anything to promote their 
diplomatic efforts to try to get a negotiation going on outer 
space. That is a fair statement.
    Mr. Platts. Thank you, Mr. Chairman.
    I do have one more. One other one for both of you. If you 
had to highlight the most significant difference between the 
1995 directive under President Clinton for a space policy and 
this one, what would you highlight as the most significant 
change? General?
    General Armor. Why don't I start. I thought it was easy. I 
have been working in the framework of the 1996 policy for 10 
years, and when I read the new one the two things that jumped 
out at me was, No. 1, more cooperation internationally, and 
especially with our allies. So I personally have been doing 
that. I have been out talking with our allies. I went to Geneva 
to the U.N. Institute of Disarmament Research a couple of 
months ago. I am planning another trip to Europe here soon, and 
working with the Australians. So there was an emphasis in the 
new policy about, hey, working with allies and cooperative 
countries works, why don't we do more of that.
    The other one was creation of new organizations within the 
executive branch, the Director of National Intelligence, 
Homeland Defense Department also, to bring more unity of effort 
within the executive branch.
    Those were the two things that jumped out at me, from my 
experience.
    Mr. Platts. Thank you. Mr. Ambassador?
    Mr. Mahley. Substantively I think I would first of all 
agree with General Armor. I would also say that I think the 
language is more explicit in identification of space as not 
only a top priority but as being vital to our national 
security. And I also think that there are some welcome changes 
in the new space policy in terms of the bureaucratics in the 
sense of organizing and assigning responsibility for the 
establishment of the resource base to pursue space policy that 
we need to pursue.
    Those are the things that I would think are changes, sir.
    Thank you.
    Mr. Platts. Thank you both for your testimony and your 
answers.
    Mr. Tierney. Thank you, Mr. Platts.
    I think we are pretty much at the end of this particular 
panel.
    I only make the note that the Foreign Ministry in China 
might be at odds with its Defense Department. That would never 
happen in this country. The Secretary of State's office would 
be at odds with the Department of Defense? We have not seen any 
of that in our recent history at all.
    I do want to thank both of our witnesses for appearing here 
today and for your testimony, both oral and written.
    At this point, with your assent, we will move on to the 
next panel, and we give you our gratitude for your time and 
effort here today.
    Thank you.
    Mr. Mahley. Mr. Chairman, I am going to impose on just one 
comment. If it were the case that the Defense Department and 
the Department of State were at odds with each other in this 
Government, we wouldn't tell the Congress about it, but we will 
tell the Congress that we think that is the case with the 
Chinese. Thank you.
    Mr. Tierney. Thank you, Ambassador.
    We are going to take about a 2-minute break here, if the 
witnesses of the second panel would like to come forward and 
take their places. We will change the name tags. Mr. Platts 
will be back, I think he said in a minute or two, and we will 
get started on the second panel. Thank you.
    [Recess.]
    Mr. Tierney. We are going to reconvene the meeting.
    Mr. Platts is tied up for a couple of moments, and he has 
said he is fine if we start to proceed. He will join us when he 
can.
    I want to introduce our second panel, which represents the 
scientific community, space and nonproliferation experts, as 
well as the commercial space industry. On this panel we have 
Dr. Laura Grego, staff scientist from the Union of Concerned 
Scientists based in Cambridge, MA; Ms. Theresa Hitchens, who is 
the Director for the Center for Defense Information; Mr. Jeff 
Kueter, who is the president of the George C. Marshall 
Institute; and Mr. David Cavossa, who is the executive director 
of the Satellite Industry Association, originally from Lowell, 
MA, just outside my district in Massachusetts, and I may have 
some family members moving in.
    Welcome to all of you.
    Again, it is the policy of the subcommittee to swear in 
witnesses before they testify. I am going to ask you to stand 
and raise your right hands, and if there are any other persons 
who are going to be responding to questions, might they also 
rise.
    [Witnesses sworn.]
    Mr. Tierney. The record will please indicate that all 
witnesses have answered in the affirmative. In case you didn't 
hear me the first time, we would love you to give a summary of 
your comments. You can read, if you wish, but a summary of 
about 5 minutes. We won't hold you strictly to that, but in 
order that all of you get your statements in and we allow for 
some questioning and answering, that would be a terrific thing. 
Your full statement will be put in the record, in any event. 
Thank you.
    Ms. Grego.

   STATEMENTS OF LAURA GREGO, PH.D., STAFF SCIENTIST, GLOBAL 
   SECURITY PROGRAM, UNION OF CONCERNED SCIENTISTS; THERESA 
   HITCHENS, DIRECTOR, CENTER FOR DEFENSE INFORMATION; JEFF 
KUETER, PRESIDENT, THE GEORGE C. MARSHALL INSTITUTE; AND DAVID 
  CAVOSSA, EXECUTIVE DIRECTOR, SATELLITE INDUSTRY ASSOCIATION

                    STATEMENT OF LAURA GREGO

    Ms. Grego. Mr. Chairman and distinguished representatives, 
thanks for allowing me the opportunity to testify before you 
today.
    I would like to address the question of what approach the 
United States should take to develop an effective and 
sustainable policy toward space security. I am a physicist by 
training and currently apply my technical background to 
analysis of space security issues.
    An important part of understanding security issues is 
understanding both the possibilities and the limits of 
technical approaches to security.
    I have four main points that I made in my submitted 
statement, and I thank you for submitting that to the record. 
They are discussed in more detail in there, but I will 
summarize them quickly.
    The first is that in recent years the United States has 
taken a largely unilateral approach to space security, based on 
pursuing technical measures and capabilities. The unclassified 
version of the national space policy released in 2006 
formalized at the highest Administrative levels what was 
essentially already U.S. policy. Arms control and diplomatic 
approaches are considered largely irrelevant to solving 
outstanding space security issues.
    Two, while there are useful technical measures the United 
States can and should take to improve security, because of the 
increasing technical capabilities of other countries and the 
dual use nature of micro satellites and other space 
technologies, the current unilateral technical approach is 
ultimately going to be neither effective nor sustainable. 
Defensive space weapons are not a solution to providing 
security to our critical satellite capabilities.
    The third point is that, as a result, there is a need for 
diplomatic efforts to pursue rules of the road and operational 
constraints on space operations, as well as verifiable legal 
constraints on systems intended to damage and destroy 
satellites. In the future, limits on specific technologies will 
not be sufficient and operational constraints and other rules 
of conduct will be essential to maintain security.
    And the last point was that, as a first step toward 
controlling anti-satellite systems, an international ban on 
debris-producing anti-satellite weapons similar to the weapon 
that China tested in January will be a way of starting an 
international process in taking an important step toward 
preserving the use of space for the future. If such a ban could 
be negotiated and respected, it would prevent the production of 
a large amount of space debris that would be generated in 
testing programs, and the single biggest threat to the future 
of the space environment could be mitigated. It would also 
reduce the military utility of extant or developing destructive 
ASAT weapons due to the decreased confidence in an untested or 
an incompletely tested system. Such a ban would be verifiable, 
perhaps with already existing surveillance assets.
    A ban on destructive anti-satellite weapons will derive 
still greater relevance and usefulness as part of a 
comprehensive regime of technical measures to preserve 
satellite capability and arms control measures, rules of the 
road for space conduct, and confidence-building measures 
between space-faring nations.
    In the remaining time I just wanted to spend a few minutes 
talking about in more depth a couple of points in my written 
testimony. The first is space debris. The Chinese ASAT test in 
January increased the amount of debris in low-earth orbits by 
about 20 percent. I would like to emphasize that the 
approximately 1,600 pieces of debris cataloged in the space 
catalog by the U.S. Air Force are only those that can be 
tracked by the U.S. Space Surveillance Network, specifically, 
pieces of debris bigger than about 10 centimeters or 4 inches 
in size. That does not include the pieces of debris that are 
too small to track reliably but which still can create 
significant damage to a satellite during a collision.
    The destruction of the Fengyun 1C satellite released, 
according to our calculations, over 40,000 pieces of debris of 
that untrackable but still very dangerous type.
    Fortunately, the absolute risk to satellites due to this 
debris is still low. However, the situation could become much 
worse if China or other countries continue testing these 
weapons, and it is critical to stop this now. We have been 
calculating the amounts of debris that would be produced by 
destructive ASAT weapons, and find that destroying a single 
large satellite such as a U.S. spy satellite would double the 
amount of dangerous debris in low-earth orbit. This is the same 
amount of debris that would be avoided during 70 to 80 years of 
space activity under the strict debris mitigation guidelines of 
the kind being considered at the United Nations and to which 
the United States is a consulting party.
    At the Union of Concerned Scientists we continue to conduct 
research on the subject of the debris from ASAT attacks and 
would be happy to provide our expertise to Congress.
    This brings me to my comments on the lead up to China's 
ASAT test. The Chinese research program on hit-to-kill 
technologies appears to have begun in the 1980's, probably 
sparked by observing the United States and Soviet Union 
developing and testing ASAT weapons during that time and the 
United States pursuing homing missile defense technologies. The 
research likely continued at a low level through the 1990's and 
may have been boosted in recent years in response to U.S. 
missile defense tests, as it would be in the Chinese self 
interest to understand this technology if it wanted to counter 
it for its own missile defense and to plans released by the 
United States for new military uses of space.
    The Chinese ability to master the difficult technical 
challenge of maneuvering a high-speed interceptor to hit a 
high-speed satellite about the size of a golf cart indicates 
the advanced state of China's space technology. However, the 
complexity of this technology does also indicate that, without 
further testing, this nascent ASAT weapon could not be 
considered an operational military capability.
    We are not privy to the internal decisionmaking process 
that led China to pursue this final destructive test, but we do 
know that the United States was not taken by surprise by the 
test, having observed the preparations for it, which reportedly 
China made no attempt to disguise, and the United States did 
see it take place.
    We also know that the United States also observed at least 
two previous tests of the ASAT system reaching back at least 18 
months in which the interceptor passed near to but did not 
collide with the satellite.
    It has been reported again that, after seeing the earlier 
tests, that the United States decided not to contact China to 
protest or ask about them. Since China would have known that 
the United States could see this test with its early warning 
sensors and understand it for what it was, it may have 
interpreted the lack of reaction by the United States as a lack 
of concern, if not tacit approval. So one does wonder what 
might be characterized as unverifiable about that.
    While the responsibility for this test rests fully with 
China, the United States may have missed an opportunity to 
avoid it if it used thoughtful diplomacy. Reports indicate that 
the U.S. officials assumed China was committed to this test and 
let the United States have little leverage to stop it. This 
assumption can't be evaluated since the United States didn't 
actually attempt to dissuade China. Moreover, we do have 
evidence that suggests this assumption may not be correct.
    Based on information we have collected about the January 
test, there appears to be an ongoing debate within China about 
the wisdom of this test and about possible future tests. It 
appears that the Chinese leadership did not anticipate the 
strong international reaction to the test. The decision process 
may have included a narrow set of people, in particular the 
Foreign Ministry appears to have been largely cut out of the 
decision to conduct that test, which may have led to this 
surprise. And Chinese decisionmakers may not have been 
adequately advised on the degree of consequences and the harm 
it would do to other space-faring nations, a number of which 
China has strong partnerships with.
    Had the United States raised this issue with China prior to 
the test, that would have almost certainly broadened the set of 
people who were involved in the decisionmaking process. This 
could have had a significant effect on the Chinese decision.
    So what happens next or doesn't happen is important. Some 
in the United States argue that the ASAT program is central to 
China's military strategy of disrupting U.S. space assets, so 
it would not have stopped the test even if the United States 
had protested; that it would continue developing and testing 
the program, despite the strongly negative international 
reaction.
    The system, itself, cannot yet be considered a proven 
capability. If China refrained from future tests, this would 
call into question just how central China sees this ASAT system 
is to its military posture, and that Chinese decisions may be 
influenced by international concerns.
    I will leave you with the idea that technical solutions 
cannot get us all the way to a secure future in space. 
Diplomacy and arms control measures will be essential to 
building our future in space, a future where the enormous 
potential of space as an agent of prosperity and stability is 
realized.
    I urge the distinguished members of this committee to ask 
the hard questions. Why isn't the United States using all the 
tools available to ensure security on space and on earth? Why 
are we not vigorously pursuing all the potential diplomatic 
avenues, when there are many? And while the United States has 
apparently abandoned the development of its own kinetic energy 
ASAT weapon back in the 1980's, it has taken a very welcome 
leadership role in developing international guidelines for 
debris mitigation and has the most to lose from space debris, 
owning over half the active satellites in orbit. Why doesn't it 
do more to make sure that no other country develops and tests 
this kind of weapons? Specifically, why did it apparently stand 
by and watch while China tested its massive kinetic energy ASAT 
system and did not vigorously try to dissuade the Chinese from 
the test in which they actually destroyed a satellite, 
especially with so much at stake?
    Thank you.
    [The prepared statement of Ms. Grego follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Tierney. Thank you.
    Ms. Hitchens.

                 STATEMENT OF THERESA HITCHENS

    Ms. Hitchens. Thank you, Mr. Chairman and members of the 
subcommittee, for inviting me today to discuss what I believe 
is one of the most important subjects for the 21st century, and 
that is the future security of space and, in particular, the 
impact of U.S. policy on that security.
    Warfare in space would endanger all space operations, 
civil, commercial, and military. As the world's preeminent 
space power, the United States will have the most to lose if 
space becomes a battlefield. Unfortunately, U.S. policy is 
leading us in exactly that direction, toward embracing space 
weaponization and away from international diplomacy that could 
reduce future threats to our space assets.
    As has been stated, the Bush administration on October 6, 
2006, released international space policy superseding the 
previous Clinton policy. While there are similarities to 
previous policies in that new national space policy, the 
wording is strikingly different from its predecessors in its 
unilateralist tone and its focus on the exercise of military 
space power. In seeking to assert unhindered U.S. rights to act 
in space, the new policy, at best, ignores the rights of others 
under the Outer Space Treaty, which deems space a global 
commons.
    The new policy not only repeats the 1996 language asserting 
a right to deny U.S. adversaries the use of space, but it goes 
further by stating U.S. intentions to deter others from even 
developing capabilities that can challenge U.S. freedom of 
action in space. That is a difficult thing to uphold, 
considering that most space technologies are dual use.
    It stops short of overtly authorizing space weapons, but 
when read in concert with current military documents designed 
to implement it, which detail the missions of offensive space 
control and space force application, U.S. intentions to pursue 
such weaponry seem clear.
    Reaction to the new policy, especially abroad, has been 
exceedingly negative. Dr. Joan Johnson-Freese of the U.S. Navy 
War College provided this assessment: ``The blunt and even 
confrontational language of the new policy puts the United 
States at odds with the priorities of other space-faring 
nations. The language is so broad that it reads more like a 
blanket claim to hegemony in space.'' And the document, as the 
chairman has already noted, further distances the United States 
from international efforts to establish collective security in 
space.
    Sadly, this aggressive U.S. declaratory policy and the Just 
Say No attitude to diplomacy is utterly failing to protect 
America's interest in space. To the contrary, it is backfiring, 
alienating allies and prompting our potential adversaries into 
seeking ways to counter any expansion of U.S. space power.
    Certainly if the aim of U.S. policy is to dissuade and 
deter others from obtaining capabilities to threaten us, it has 
failed at doing so. As we heard, China has tested an ASAT 
weapon. India is threatening to develop similar capabilities 
which would no doubt spark an Asian ASAT arms race involving 
Pakistan and possibly others. And we have already heard about 
the debris problem.
    The time has come for the United States to rethink its 
failing strategy. A first step would be to engage other space-
faring nations in efforts to define peacetime rules of the 
road, as mentioned by General Armor. A space code of conduct 
would bolster U.S. national security by serving to reduce 
tensions and making it easier to identify and constrain bad 
apples.
    Second, the United States should renounce not only the 
development and deployment of debris-creating ASATs, but it 
should also urge an international ban on testing and use of 
these indiscriminate satellite killers. While such a ban may 
not prevent people from working on them, it certainly would 
discourage other nations from using them or testing them, which 
is where I mentioned would make it less likely that they would 
want to rely on them in warfare.
    As they say, an ounce of prevention is worth a pound of 
cure, and in the case of space debris this is doubly true since 
there are currently no technologies available for cleaning it 
up. There is no such thing as a Space Hoover.
    Finally, the United States needs to sit down with other 
space-faring nations to discuss how to avoid an arms race in 
the heavens, and I am glad to hear that Ambassador Mahley said 
that the United States is no longer refusing informal 
discussions in the CD. That is a change, and it is a welcome 
one. But I would hope that we would be willing to at least talk 
about crafting a treaty to ban space-based weapons, even though 
we know it would be fiendishly difficult to do. Certainly there 
can be no harm from an honest discussion.
    My last point is that a new focus on diplomacy and 
collective security in space does not and should not mean that 
the United States should abandon necessary efforts to protect 
its satellites, for example, by improving space situational 
awareness, but the fact is that what any one operator does in 
space directly affects all others, and not any one nation, not 
even the United States, can guarantee safety and security in 
space on its own.
    Thank you. I will be happy to take any questions.
    [The prepared statement of Ms. Hitchens follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Tierney. Thank you, Ms. Hitchens.
    Mr. Kueter.

                    STATEMENT OF JEFF KUETER

    Mr. Kueter. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to be here today to discuss this 
very important issue. I agree completely with Theresa that it 
is, I believe, the national security question of the 21st 
century.
    Our use of space has clearly changed, and what it means for 
the strategic environment has clearly changed. As has been 
mentioned, the missions provided by space are integral to the 
American way of warfare. This way of warfare brings us enormous 
advantages. It requires less manpower, puts fewer U.S. forces 
in harm's way, and integrates all space-based missions into 
real time boots-on-the-ground and stand-off precision strike 
operations.
    By fulfilling these real-time war fighting needs, as well 
as the broader strategic reconnaissance and intelligence 
missions, space assets no longer just tell us where people are 
and what they are doing, they are integrated with and improve 
the effectiveness of weapons systems that are used to target 
and destroy. That is not a convenience to the war fighter; they 
are now part of the weapons systems that we use every day, and 
not an insignificant part of that.
    These capabilities are uniquely American strength and 
provide clear incentive for attacking American spacecraft. 
Other nations have clearly taken notice. China's demonstration 
of its direct-ascent anti-satellite system in January 2007 
shows those emerging capabilities. Last September, reports 
surfaced that China had successfully conducted laser blinding 
tests against U.S. reconnaissance satellites, and further 
investigation reveals that these blinding tests had been 
ongoing for several years. China has made no secret of its 
efforts to develop techniques to jam navigation satellites, as 
have many other nations.
    China's perceptions of its security environment and the 
nature of the future conflicts explain their investment in 
military space capabilities. They understand that the control 
of space is essential to success in future warfare. Without 
control of space, Chinese military leaders believe neither they 
nor an adversary can expect to assert air or naval dominance or 
win a ground war.
    In light of this changed environment, what are we to make 
of the national space policy? Released after many years in the 
making, the policy charts a reasonable course, upholding 
established beliefs about safeguarding the security of the 
United States in space while preserving the flexibility needed 
to respond to the uncertain security environments of the 
future.
    The policy is not without its failings, but it does 
reiterate the commitment to preserving and protecting U.S. 
assets in space, as has been directed by Democratic and 
Republican Presidents, alike, over the years. But as the first 
space policy written for the age of the space-enabled 
reconnaissance strike complex, the policy rightly asserts that 
the national security establishment should ``develop 
capabilities, plans, and options to ensure freedom of action in 
space and, if directed, deny such freedom of actions to 
adversaries.''
    This goal draws its origins from the earliest days of the 
U.S. space program, nor is there really anything unique about 
directing the security establishment to develop plans and 
options to deny freedom of action to adversaries. Even 
President Carter ordered the Defense Department to ``vigorously 
pursue development of an anti-satellite capability'' and 
allowed for the production of such systems.
    Nevertheless, this mandate is widely interpreted as 
presaging the deployment of new U.S. space weapons rather than 
for what it actually is, a reaffirmation of the continuing 
strategic approach.
    The declaration that the United States will ``oppose the 
development of new legal regimes or other restrictions that 
seek to prohibit or limit U.S. access to or use of space'' also 
is offered as evidence that the new policy is part of some 
nefarious framework to expand U.S. hegemony in space. Instead 
of just simply a statement that the United States will not 
support international agreements that it considers contrary to 
its interests, it is not the blanket prohibition on arms 
control, as is often asserted.
    Past space policies include similar qualifying language. 
For example, President Clinton's 1996 policy stated that the 
United States should ``conclude agreements on such measures 
only if they are equitable, effectively verifiable, and enhance 
the security of the United States or our allies.'' The new 
policy sends the same message as the old policy: the United 
States will not become a party to an agreement that it feels is 
contrary to its interests. Nevertheless, the new policy does 
not eschew internationally. For example, it strongly calls on 
the United States to assume leadership on overall debris 
mitigation.
    So the question now facing America's leaders is, how does 
the United States best deter, deny, and dissuade the Chinese 
and other emerging space powers from hostile actions in space?
    The first step I suggest is moving beyond the tired lexical 
dispute over what is militarizing or weaponizing space. That is 
too late. Space is already both of those. A positive step would 
be to build on recognition of the new reality in space to 
enable public and political support necessary to begin the work 
to protect critical space programs. A new emphasis on policies 
and programs likely to improve our capabilities to respond and 
react to incidents in space is needed. The United States should 
not foreclose the option of developing active defenses, if 
necessary. And, finally, diplomatic efforts can play important 
roles in preserving U.S. security, but only in combination with 
other measures.
    There are a number of topics that I suggest we consider 
there, most importantly involving more actively our NATO 
allies.
    Thank you for the opportunity to be here today.
    [The prepared statement of Mr. Kueter follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Tierney. Thank you, Mr. Kueter.
    Mr. Cavossa.

                   STATEMENT OF DAVID CAVOSSA

    Mr. Cavossa. Mr. Chairman, Representative McCollum, 
Representative Platts, on behalf of the Satellite Industry 
Association it is my goal today to provide you with an overview 
of the critical role satellites play in our global economy, the 
role they play in support of our military and first responders, 
and then finally speak for a few moments on the importance of 
space situational awareness and being a responsible actor in 
space.
    Whether broadcasting television programming to viewers 
throughout the world, enabling the U.S. military to conduct 
large and small scale operations across large distances, or 
providing communications to first responders during disasters, 
satellites are there.
    Today satellites permeate our every-day lives and 
contribute over $106 billion to our global economy. Today 
commercial satellites support daily activities such as truck 
fleet management, credit card validations, pay-at-the-pump 
services, ATM withdrawals, high-speed Internet access, traffic 
and weather reports, and almost all television and radio 
distribution. In rural areas where terrestrial communications 
do not reach all residents, satellite broadband, satellite 
television, and satellite radio provide consumers services they 
otherwise would not have access to through terrestrial means.
    As we all know, satellite communications have also played a 
critical role during the response to each of the natural and 
man-made disasters in recent memory. In 2005, satellite 
communications provided a lifeline for aid workers and victims 
in the remote islands of the Indian Ocean following the Asian 
tsunami, and in the earthquake-desolated towns and villages of 
Pakistan. In response to Hurricanes Katrina and Rita and the 
recent tornadoes in Kansas, satellite communication's once 
again proved their essential value when all other forms of 
terrestrial communications were wiped out. In many of these 
affected areas, satellite communications provide the only means 
of communication.
    Military forces are also perhaps the most dependent upon 
satellite communication systems today. Telemedicine via 
satellite puts the resources of the world-class specialists and 
surgeons at the disposal of medical teams in the field. 
Unmanned aerial vehicles such as the Predator and Global Hawk 
are heavy users of satellite bandwidth today. Other bandwidth-
intensive activities such as secure video teleconferencing and 
encrypted command and control are also supported by satellite 
communications. The DOD estimates that satellite systems 
provided over 60 percent of all communications during Operation 
Iraqi Freedom.
    Given this reliance on satellite communications, during the 
last 5 years the satellite industry has spent thousands of 
hours and millions of dollars working with the government, both 
domestic and allied, to improve the performance, security, and 
reliability of our satellite infrastructure. These activities 
are being coordinated, again, both domestically and with our 
allied partners through what is called the Commercial Satellite 
Mission Assurance Working Group [MAWG].
    Through the MAWG we meet on a regular basis with 
representatives of the combatant commands, the military 
services, and Defense agencies, as well as the U.S. State 
Department, the intelligence community, and representatives of 
allied governments. The issues we discuss are space situational 
awareness, information sharing, jamming and intentional 
interference to commercial communication satellites, and how to 
handle close approaches in space between commercial satellites 
and government satellites.
    For the past few years our companies have worked closely 
with the U.S. Government to develop a series of best practices 
to reduce the chances of orbital collisions and close 
approaches between commercial satellites and government 
satellites. As part of that effort, for the past 3 years our 
companies have used space surveillance data provided by Air 
Force Space Command. Their commercial and foreign entities 
pilot program is very essential to avoid collisions with other 
natural or man-made objects in space.
    A key piece of this coordination effort, as General Armor 
mentioned during the question and answer session, is in 
jeopardy, however. The CFE program, or the Commercial and 
Foreign Entity program, is currently on a list of unfunded 
priorities in the DOD budget, and therefore we urge Congress to 
fully fund the CFE program to ensure we are all able to 
continue safe operations and responsible operations in space. 
We need that data from the Department of Defense.
    We believe that the U.S. Air Force should fully implement 
the congressional mandated CFE program and that the program 
should include launch support, conjunction assessment, end-of-
life and re-entry support, anomaly resolution, and emergency 
services during close approach times. This will all help us 
operate safely.
    In closing, satellite systems, as I have mentioned, 
represent a critical infrastructure for the United States, its 
allies and our trading partners. As such, Congress must ensure 
that space commerce is as protected as maritime commerce is 
today, and therefore we need to invest to raise the robustness 
of the space infrastructure to mute the effect an attack would 
have on any one object.
    The commercial satellite industry is fully focused on 
reducing potential vulnerabilities in our systems and, further, 
we are working proactively with the U.S. Government and with 
allied governments to establish these best practices that I 
have referred to to promote safe and responsible operations.
    Mr. Chairman and committee members, thank you for having me 
today. I look forward to answering any questions.
    [The prepared statement of Mr. Cavossa follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Mr. Tierney. Thank you very much. Thanks to all the 
witnesses on the panel.
    If you are good enough to key up a small video that I would 
like to play just for a minute and a half on this, this is a 
video by sellerstrack.com, which uses debris data from the Air 
Force. As we watch it, I think we can remember the model-sized 
piece of debris in low-earth orbit would hit a satellite with 
the same force as a one ton safe dropped from a five-story 
building on earth. But after this I want to ask a question of 
Mr. Cavossa.
    [Video presentation.]
    Mr. Tierney. The red that you see there is obviously a 
depiction of the debris from the Chinese satellite being shot 
down.
    [End of video presentation.]
    Mr. Tierney. Mr. Cavossa, can you talk to us a little bit 
about the challenges of space debris to your commercial 
satellite sector?
    Mr. Cavossa. Our commercial satellite operators are located 
both in low-earth orbit, in relative proximity to what you saw 
there in that illustration, but a great number, a majority of 
our satellites are located in geostationary orbit, which is 
23,000 miles away, quite a bit further away. But our satellite 
operators today, both in low-earth orbit and geostationary 
orbit, work very closely with each other. They make sure that 
when a satellite from one company is going to perhaps maneuver 
to a different orbital slot, it coordinates with all the 
satellites around it to make sure that everyone knows, hey, I 
am about to move, and give that data on where you are going to 
move your satellites so everyone is aware. We call it Nation 
Watch of Space Situational Awareness.
    Mr. Tierney. But debris doesn't give you much of an 
opportunity to plan with anything, does it?
    Mr. Cavossa. No. If it is, of course, debris that we don't 
know about, that is a problem, and that is why this CFE program 
that I mentioned that the Air Force Space Command runs is so 
critical to commercial satellite operators. We don't have the 
ability to track objects in space, the same ability that the 
U.S. Government has.
    Mr. Tierney. So you think tracking would be enough if a 
number of nations decided they were going to test as China did 
and all that debris got in there? Do you think the ability to 
track that would give comfort to your commercial sector?
    Mr. Cavossa. Well, sir, tracking alone would be important, 
of course, but if there was quite a bit more debris up there, 
yes, that would cause a problem for our satellites.
    Mr. Tierney. Ms. Hitchens, would you respond a little bit 
to Mr. Kueter's testimony and to the first two witnesses of 
this concept that we can't really verify any treaty on that, we 
can't define the terms, I think the first panel said what's 
weaponization, they can't determine what's a violation, can't 
be verified and can't be enforced. Do you have a reaction to 
that?
    Ms. Hitchens. I think everyone who works on this issue 
recognizes that it would be very difficult to craft a sort of 
generic space weapons ban treaty, and Laura referred to it with 
the idea of the difficulty of banning technology, and in 
particular the difficulty of discerning between dual use 
technology on what is a weapon and what is not a weapon.
    On the other hand, that doesn't necessarily mean that it is 
not doable. The United States has signed treaties that don't 
have verification provisions. Correct me if I am wrong, but I 
believe the Biological Weapons Convention does not have 
verification protocol, because the United States insisted that 
it did not.
    Certainly there are other approaches like the ASAT testing 
and use ban, which we have rejected, and I don't know why 
because you can verify testing and use of a debris-creating 
ASAT.
    So there are a lot of different approaches that need to be 
explored. The problem here has largely been a lack of will and 
not a lack of way.
    Mr. Tierney. Mr. Kueter, on that other point, I heard you 
say pretty clearly that U.S. warfare and intelligence relies on 
satellites. I don't think anybody disputes that, or that it is 
a useful thing to have, but can't we differentiate between not 
interfering with a nation's ability to use satellites for those 
purposes and the prospect of people attacking those satellites 
and then creating debris from it or other difficulties on that, 
and then go back to Ms. Hitchens' point of wouldn't it be 
useful to at least make a differentiation and then talk about 
having some agreement that would not allow people to do that.
    Mr. Kueter. The satellites that we use for real-time war 
fighting capabilities, the communication satellites, the GPS 
signals that enable precision navigation and timing, are 
integrated into terrestrial power projection capabilities 
today. That is the point that I am trying to make in terms of 
why those assets are now very attractive strategic targets for 
a real or potential adversary of the United States to go after. 
If they were to successfully eliminate our access to those 
capabilities or deny our use of those capabilities when we 
desire to use them, they would gain an enormous asymmetric 
advantage over us at a particular point in time.
    Mr. Tierney. I guess that is the point. So isn't that what 
we want to negotiate with them so that they wouldn't be able to 
do that without some sort of agreement prohibiting that?
    Mr. Kueter. Well, sir, there are two specific responses to 
that. The first is I don't see where it would be in the 
interest of any other nation to negotiate their right away to 
exploit that asymmetric advantage at some future point in time; 
and, second, I don't believe that it is possible to verify all 
of the numerous ways that one might hold those assets at risk, 
both electronic, which we have not talked about very much, or 
through direct threats, such as the direct-ascent ASAT that we 
have talked about.
    Mr. Tierney. On the first point, isn't that a little bit 
like saying people won't want to negotiate away their right to 
have nuclear weapons, so we shouldn't have any weapons 
nonproliferation agreements in that respect, and biological, 
chemical, the whole idea that somebody might want an advantage 
that they think they can get some day means that they will 
never negotiate in good faith and preclude that?
    Mr. Kueter. Well, the first point I guess I would make 
against that statement is that we are talking about a set of 
capabilities today that China clearly possesses and that other 
nations have nascent capabilities to possess. In the sense of 
being able to launch a ballistic missile from the surface of 
the earth carrying a nuclear warhead into space, exploding it, 
and destroying any number of satellites in its path, those 
capabilities exist in the hands of numerous nations today. So 
you would be talking about an arms control effort that would 
require rolling back capabilities.
    I would suggest that we have very few arms treaties that we 
can point to that suggest a rolling back of capabilities on a 
multilateral level.
    Mr. Tierney. I can name a few.
    Ms. Hitchens and Ms. Grego, why don't we ask you for a 
comment on that?
    Ms. Grego. Well, I think really the question is are we 
better off in a world where we have unrestrained ASATs or not. 
You can argue that you can't define every threat, that you 
can't verify every threat, and that may be true. I don't think 
that we have gone far enough to really determine that. But the 
question is: would we be better by moving ahead with diplomatic 
efforts to restrain the most dangerous technologies; for 
example, direct-ascent ASATs. I think the answer really is yes. 
And I think that is the type of ban that is actually 
verifiable, that is doable with our capabilities right now.
    Whether or not countries have the technology to approach or 
to develop those weapons, well, I think soon enough anyone who 
is interested or finds it in their interest to have an ASAT 
weapon would be able to develop some technology that can do 
that. That is the reality we have to face, and I think we will 
best face that if we have some kind of comprehensive arms 
control agreement to manage that transition to the future.
    Mr. Tierney. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, Mr. Cavossa, as to the specific national space 
policy for your industry, do you think it adequately addresses 
the role of commercial space travel and involvement as it is 
written currently?
    Mr. Cavossa. Sure. Representative Platts, as an industry 
association, we are a consensus-based trade association, so all 
30 members of our group have to agree before we go forward with 
any position, so on that issue the industry doesn't have a 
position of supporting or opposing.
    I can highlight, though, that there was some interest in 
the things we did see in the space policy we hadn't seen in the 
past, which was the focus on interference becoming a problem. 
Jamming up commercial communication satellites is a problem, 
and it was mentioned in the national space policy as an issue 
that the U.S. Government was looking at and viewed as a serious 
threat. So we were happy to see that.
    Mr. Platts. OK. And certainly you mentioned the funding on 
the CFE issue, not part of the space policy but just the 
importance of that to your industry?
    Mr. Cavossa. Yes, sir.
    Mr. Platts. OK. Ms. Hitchens, you talk about in your 
testimony that the space policy, we are, in essence, giving 
China an excuse or a basis to pursue the weaponization of 
space. Given the timing of this launch in January, I think it 
is fair to say it was really under the language of the last 
policy of 1996, because the new policy had just come out in the 
fall of 2006. So how do you reconcile that if this new policy 
is so dramatically different and more military focused, China 
went ahead with their launch, anti-satellite launch, under the 
Clinton policy, so why would this one be more encouraging given 
that it happened already under the Clinton policy?
    Ms. Hitchens. I think there are two parts to that question, 
sir, so I am going to try to answer maybe the last one first.
    It is obvious that China has been interested in what we 
call counter-space technologies, things we have been pursuing 
for more than a decade, for a long time due to their 
recognition that United States and other's space power is 
something that might be vulnerable. OK? So there is no denying 
that.
    Second, it is probably not true that China's test was a 
direct response to the new national space policy. I think what 
I was trying to say in my testimony is that such a national 
space policy that can be read as very aggressive, especially 
when you read it along with Air Force doctrine that talks about 
counter-space operations, offensive counter-space operations, 
attacking satellites, you can see that it could give political 
cover to the Chinese to say we are doing this because the 
United States is a threat.
    And the Chinese, indeed, have said that we are a threat, 
the United States is a threat, both with its efforts to create 
hegemony in space and contain the Chinese and, second, with the 
U.S. missile defense effort, which the Chinese have long been 
concerned will nullify their very small nuclear deterrent.
    So U.S. space power has been an issue for China for more 
than a decade, and it has numerous factors.
    Mr. Platts. So is it your contention, then, that if we had 
just continued under the Clinton space policy, China would not 
be pursuing its endeavors as it is?
    Ms. Hitchens. Actually, no. I think obviously the Clinton 
administration didn't pursue space arms control, either. 
Although they did not, they ruled out space weapons and anti-
satellite weapons. They canceled programs. Despite the language 
in the policy, their implementation of it was very, very 
different. They did not approve of the weaponization of space.
    That said, I don't necessarily think the Chinese might not 
have gone down this path if we would have continued the Clinton 
policy, because we have failed. This administration has taken a 
harsher line, but we have failed for more than a decade to 
properly pursue diplomacy as one end of our space policy.
    Mr. Platts. I guess when I read the sections of the 1996 
policy that you quoted and the 2006, I would look at it 
similarly to Mr. Kueter that I don't see a whole lot of 
difference. There are some slight words, but I think the key 
is, when they talk about an arms control agreement, only if 
they are equitable, effectively verifiable, and enhances the 
security of the United States and our allies.
    Maybe they put that at the end of the sentence as opposed 
to lead with that, but the focus is still we are not going to 
pursue and enter into arms agreements that are not in the 
national security interest of our country.
    Ms. Grego. No country would enter into an arms control 
agreement that wouldn't be in their interest. That would be 
silly. And I don't believe that is what I or others who are 
advocating for certain kinds of agreements and diplomacy are 
trying to advocate. Indeed, in my humble opinion it is in the 
U.S. national security to try to use diplomatic tools to 
counter some of these problems, because I don't believe that we 
can do that using hard power.
    Mr. Platts. One real quick.
    Mr. Tierney. We have four votes coming up, so that 
everybody gets a chance to ask questions.
    Mr. Platts. OK. Final one is just, 1996, the last policy, 
is a very different world coming out of the end of the cold war 
to 2007 and the global war on terror and the threat that exists 
today. Would you acknowledge that you can't compare 1996 and 
the decisions then directly to 2006, given the changes in the 
threats to American security?
    Ms. Hitchens. I actually think that is a very good point, 
sir. One of the things that I believe that we need to look at 
currently with regard to space is the fact that there are more 
and more space actors and that the technology has spread, and 
we have to really think about how we handle space in a 
globalized world as opposed to in a bipolar world, and that 
makes it a lot more difficult but it makes it a lot more 
crucial that we figure out things like rules of the road for 
space actors. I think that is what you and General Armor were 
talking about, the expansion of space technology and the need 
to----
    Mr. Platts. I would like to explore further, because the 
issue that has not been mentioned is the difference in 
terrorism today versus 1996 in a global sense, but I am out of 
time.
    I thank all of you for your testimony.
    Mr. Tierney. There may be more time for you after Ms. 
McCollum, but I want to make sure Ms. McCollum has an 
opportunity.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    To the difference in language--and I might add that the 
Bush administration, when it is working on language like this 
product doesn't hold discussions, hearing from the best and 
brightest in a public venue, talk to Members of Congress about 
things. Usually it gets released on a Friday after Congress has 
adjourned to go home to work for the weekend in our Districts. 
But I found it interesting in your testimony, Ms. Hitchens, I 
think words do have meaning, and I think the meaning is very, 
very different.
    The Clinton policy: ``Consistent with treaty obligations, 
the United States will develop, operate, and maintain space 
control capabilities to ensure the freedoms of action in space, 
and if directed denies such freedom of access to adversaries. 
These capabilities may also be enhanced by diplomatic, legal, 
or military measures to preclude an adversary's hostile use of 
space systems and services.'' Clearly, going to defend the 
country but clearly wants to work with the international 
community for a solution.
    This is our new doctrine: ``The United States considers 
space capabilities, including ground segments, as supporting 
links and vital to its national interest. Consistent with the 
policy, the United States will preserve its rights and 
capabilities of freedoms and actions in space.'' But here's 
where the language, I think, in my opinion, really changes: 
``Dissuade or deter others from either impeding those rights or 
developing capabilities to do so, to take actions necessary to 
protect space capabilities, to respond to interference and 
deny, if necessary, adversaries the use of space capabilities 
hostile to the United States' interest.''
    One is inclusive, kind of to what you were saying about 
your industry doesn't have a position on it but let's get 
people together and talk about what is in the common good, 
making sure that the U.S. security interests are taken care of, 
and the other one is saying I don't have to worry about the 
common good, I just have to worry about my good. And when I 
just worry about myself, or if we just worry about the United 
States, other countries quite often perceive that as hostile, 
that they are not being included in it.
    So if you could comment, internationally what have you 
heard from even some of our allies internationally on this 
different tone that is being taken, and perhaps you, as well, 
sir, from the industry perspective internationally.
    Ms. Hitchens. Well, as I said, the reaction, particularly 
internationally, to the new space policy was exceedingly 
negative. I want to point out that this didn't just come from 
places that would be likely to bash the Bush administration or 
the United States. I mean, Aviation Week, the industry journal, 
called the new policy judalistic and fretted that it would harm 
NASA's ability to find partners for the Moon and Mars. The 
Times of London called the policy comically proprietary about 
the United States' wish to control everyone's access to space. 
And you heard my quote from Joan Johnson-Freese, who is a 
tenured professor at the Naval War College. So we are not 
exactly talking about the flaming liberal left commentators 
here.
    Language is important. Language is important, and the 
language in this policy talks about U.S. rights, U.S. rights, 
protecting U.S. freedom of action; whereas, if you look at the 
Clinton policy and you look at the words, it talks about 
sovereign rights of any nation. Those are differences. In fact, 
the Reagan policy talked about sovereign rights of any nation. 
So this is a change in tonality.
    While we may think that is no big deal in the substance, on 
the international stage that is what diplomacy is about. It is 
not only about what you say, but it is about how you say it.
    Mr. Cavossa. Congresswoman, all I can say is, as an 
industry we tend to be a global industry. The satellite 
industry is very much the telecommunications industry, so the 
companies that are represented by the Satellite Industry 
Association across the board are U.S. and non-U.S. companies. 
What we have seen, I mentioned in my testimony the Mission 
Assurance Working Group, that we have been working with the 
Department of Defense and allied governments. In those 
meetings, allied governments are in the room, representatives 
of the government or of the ministries of defense are there, 
and they are trying to work with us. To the DOD's credit, they 
are inviting them to be involved in these discussions.
    That is all I can speak to.
    Mr. Tierney. Thank you very much.
    We are going to have to go to vote, but if anybody has a 
final comment that they want to make in 30 seconds, I will give 
you each an opportunity to do that, and then apologize for the 
fact, but I don't want to make you wait around for another hour 
before we come back.
    Does anybody care to say anything? Mr. Kueter.
    Mr. Kueter. I would just like to comment on your question. 
I think the reactions that we saw in the immediate aftermath of 
the release of the policy reflect the greatest failure that the 
administration pursued in releasing this policy, which was the 
failure to come out publicly and articulate what they meant 
when they used the language in this particular document. I 
think the language that you quoted compared to the Bush 
administration or the new space policy is consistent in terms 
of an interpretation that one could put on it.
    And I would say that, in terms of the real rubber meets the 
road part of international cooperation, I would refer you to 
General Armor's comments on the first panel, where he said 
that, in fact, from his perspective the new policy encouraged 
greater international cooperation on a military-to-military 
side, something that he didn't see in the earlier program.
    Mr. Tierney. Thank you.
    Mr. Cavossa, anything to close?
    Mr. Cavossa. No, sir.
    Mr. Tierney. Ms. Grego.
    Ms. Grego. No, thank you.
    Mr. Tierney. Ms. Hitchens.
    Ms. Hitchens. I just want to mention that I do want to 
thank you, Mr. Chairman, and the panel for undertaking this, 
because I believe this has been the first hearing on space 
policy, the first public debate, and we really do need to have 
more of these.
    And the second thing I wanted to say is the one thing I 
think you will hear agreement on across the board here if you 
listen hard is the question of rules of the road and the idea 
of establishing new rules for people to operate together 
particularly in peacetime. That is an issue that I think there 
is more and more consensus about, and I would really urge the 
committee and the subcommittee to look into that in more depth.
    Thank you.
    Mr. Tierney. Thank you. Thank you all very, very much for 
your time, patience, and your contributions.
    I would invite you to write the committee with any 
suggestions you have on what a further hearing would focus 
upon. If it could be helpful to the debate, we will then 
discuss it as a committee and decide if we are going to do 
that. We do want to make sure that this issue gets covered. We 
think it is important also or we wouldn't have had the hearing.
    Thank all of you, thank my colleagues.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
